Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 CONSULTATIONS IN MEDICARE:

 CODING AND REIMBURSEMENT 





                     Daniel R. Levinson

                     Inspector General 


                       March 2006

                     OEI-09-02-00030

                Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
the Department, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and
of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
    E X E C U T I V E                    S U          M M A R Y
  Δ         E X E C U T I V E                           S U M M A R Y                      



                    OBJECTIVE
                    To determine if services billed to Medicare as consultations were coded
                    correctly and documented adequately.


                    BACKGROUND
                    Medicare allowed $3.3 billion for consultations in 2001. The Current
                    Procedural Terminology (CPT) defines a consultation as “ . . . a type of
                    service provided by a physician whose opinion or advice regarding
                    evaluation and/or management of a specific problem is requested by
                    another physician or other appropriate source.” A consultation differs
                    from similar evaluation and management services in that a consultation
                    involves a specific request for help with a particular diagnosis or course
                    of treatment on a limited basis, while an office or inpatient visit lacks
                    such a request and can involve ongoing care of a patient.

                    The CPT defines four types of consultation: (1) office or other
                    outpatient, (2) initial inpatient, (3) follow-up inpatient, and
                    (4) confirmatory (also called a second opinion). Within each type, three
                    or five levels of complexity exist, with a distinct billing code for each
                    level. The level depends on three key components: (1) the extent of the
                    patient history taken, (2) the thoroughness of the physical examination,
                    and (3) the complexity of the consultant’s medical decisionmaking.

                    Pursuant to 42 CFR § 411.351 and section 15506 of the Medicare
                    Carriers Manual, Medicare allows reimbursement for consultations if
                    (1) a physician requests the consultation, (2) the request and need for
                    the consultation are documented in the patient’s medical record, and
                    (3) the consultant furnishes a written report to the referring physician.
                    Other provisions of Federal law require that physicians document all
                    Medicare services and bill them with the correct code.

                    We selected a simple random sample of 400 consultations allowed by
                    Medicare with dates of service in calendar year 2001. For each
                    consultation, we identified the patient, consultant, and referring
                    physician listed on the claim, as well as the provider of any concurrent
                    Part A services. From each of these sources, we requested photocopies
                    of the portion of the patient’s medical record that pertained to the
                    sampled consultation. We contracted with certified professional coders
                    who have extensive experience reviewing Medicare claims to determine


OEI-09-02-00030     C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT       i
E X E C U T I V E                       S U          M M A R Y


                   if each service was billed with the correct code and documented
                   adequately.

                   Because we only reviewed consultation services provided in 2001, our
                   sample results cannot be extrapolated to other periods. Accordingly, we
                   make no inferences to consultation error rates in subsequent years. As
                   noted previously, Medicare reimbursement for consultations increased
                   from $3.3 billion in 2001 to $4.1 billion in 2004. To our knowledge, the
                   Centers for Medicare & Medicaid Services (CMS) has made no national
                   policy changes that would affect the incidence of consultation payment
                   errors since 2001, suggesting that at least some of the payment
                   vulnerabilities that we identified still exist.


                   FINDING
                   Medicare allowed approximately $1.1 billion more in 2001 than it
                   should have for services that were billed as consultations.
                   Approximately 75 percent of services billed as consultations and allowed
                   by Medicare in 2001 did not meet all applicable program requirements,
                   resulting in $1.1 billion in improper payments. Services billed as
                   consultations often did not meet Medicare’s definition of a consultation
                   (19 percent—$191 million), were billed as the wrong type or level of
                   consultation (47 percent—$613 million), or were not substantiated by
                   documentation (9 percent—$260 million). Consultations billed at the
                   highest billing level (the most complex services, which generate the
                   highest reimbursements under the physician fee schedule) and
                   follow-up inpatient consultations were particularly problematic;
                   approximately 95 percent of each were miscoded.


                   RECOMMENDATION
                   Our review showed that services billed to Medicare as consultations
                   often were not actually consultations, were coded as the incorrect type
                   or level of consultation, or were not substantiated by documentation.
                   Although CMS clarified the difference between office visits and
                   consultations in an October 2003 update to section 15506 of the
                   Medicare Carriers Manual, the distinctions among the types and levels
                   of consultations were not addressed. Therefore, we recommend that,
                   through its Medicare carriers, CMS educate physicians and other
                   health care practitioners about the criteria and proper billing for all
                   types and levels of consultations with emphasis on the highest
                   billing levels and follow-up inpatient consultations.

 OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   ii
E X E C U T I V E                       S U          M M A R Y


                   In addition, we have forwarded information on the miscoded and
                   undocumented services identified in our sample to CMS for appropriate
                   action.


                   AGENCY COMMENTS
                   In its comments to our draft report, CMS noted that the CPT codes for
                   follow-up inpatient consultations and confirmatory consultations were
                   deleted effective January 1, 2006. CMS has revised its policy manuals
                   to reflect these changes. The agency agreed with our recommendation
                   to educate providers about consultations and plans to publish on its
                   Web site a Special Edition article highlighting these changes and
                   providing new coding instructions for consultation services.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We are pleased that CMS has agreed to implement our recommendation
                   and look forward to seeing the Special Edition article when it is
                   published. Also, the elimination of the codes for follow-up inpatient
                   consultations and confirmatory consultations should improve providers’
                   understanding of the proper billing for consultations and reduce the
                   error rate associated with these services.




 OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   iii
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i



         INTRODUCTION ................................................ 1




         FINDING ......................................................... 8

                    Overpayments of $1.1 billion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . . . . 11 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    A: Coding Levels for Consultations . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                    B: Confidence Intervals for Ratios and Percentages . . . . . . . . . . . . 14 


                    C: Inappropriately Allowed Amounts From Service Universe . . . 16 


                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

Δ   I N T R O D U C T I O N                                          



                  OBJECTIVE
                  To determine if services billed to Medicare as consultations were coded
                  correctly and documented adequately.


                  BACKGROUND
                  What Are Consultations?
                  The Current Procedural Terminology (CPT) defines a consultation as a
                  “ . . . type of service provided by a physician whose opinion or advice
                  regarding evaluation and/or management of a specific problem is
                  requested by another physician or other appropriate source.”
                  Appropriate sources include physicians, other health care practitioners,
                  and—in the case of a confirmatory consultation—the patient.1 A
                  consultation differs from similar evaluation and management services
                  in that it involves a specific request for help with a particular diagnosis
                  or course of treatment on a limited basis, while an office or inpatient
                  visit lacks such a request and can involve ongoing care of a patient.

                  The CPT, which the Centers for Medicare & Medicaid Services (CMS)
                  uses as the basis for reimbursing physician services, defines four types
                  of consultation according to the place of service and the source of the
                  request:

                            	 n office or other outpatient consultation is a consultation
                         1. A
                            provided in the consultant’s office or other ambulatory facility
                            such as the patient’s residence, a hospital observation unit, or an
                            emergency department. As set forth in the 2001 Physician Fee
                            Schedule, an office or other outpatient consultation has the
                            highest Medicare reimbursement rate of all consultation types.

                         2. A
                            	 n initial inpatient consultation is provided in an inpatient
                            hospital, a skilled nursing facility, or a partial hospital setting.
                            This type of consultation should be billed only once by a
                            particular consultant per inpatient admission. This type of
                            consultation has the second-highest level of Medicare
                            reimbursement.


                  1 Hereinafter, we will use the term “referring physician” as a generic term to designate the
                    source of the consultation, regardless of that individual’s credentials. We will use the
                    term “consultant” to mean the provider of the consultation.




OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                           1
I N T R O D        U C T            I O N


                           3. A
                              	 confirmatory consultation—also called a second opinion—may
                              be initiated by the patient or third-party insurance payers who
                              require another opinion before approving a medical treatment or
                              surgical procedure. This service can be provided in either an
                              office or inpatient setting. A confirmatory consultation ranks
                              third among the consultation types in terms of Medicare
                              reimbursement rates.

                           4. A
                              	 follow-up inpatient consultation is a service provided to
                              complete an initial inpatient consultation or a new consultation
                              provided by a consultant who has already performed an initial
                              inpatient consultation for the patient during a single admission.
                              A follow-up consultation can include monitoring progress,
                              recommending treatment modifications, or advising on a new
                              plan of care in response to changes in the patient’s status. A
                              follow-up inpatient consultation has the lowest Medicare
                              reimbursement rate of all consultation types.

                    The CPT further divides each type of consultation into levels based on
                    the intensity and complexity of three key components. These three key
                    components are patient history, physical examination, and medical
                    decisionmaking. Higher-level codes describe more complex
                    consultations and are reimbursed accordingly. Follow-up inpatient
                    consultations are divided among three levels, while the three other
                    types each have five levels. See Appendix A for a detailed explanation
                    of consultation levels.
                    Medicare Coverage of and Reimbursement for Consultations
                    In 1983, CMS adopted CPT as part of the Healthcare Common
                    Procedure Coding System (HCPCS) and mandated that providers use
                    HCPCS to report consultations and other services to Medicare. Section
                    1848(c)(5) of the Social Security Act (the Act) required the Secretary of
                    the Department of Health and Human Services to develop a uniform
                    procedure coding system for all physician services, and specifically
                    called for “an appropriate coding structure for . . . consultations.”
                    Section 1848(a)(1) of the Act established the physician fee schedule as
                    the basis for Medicare reimbursement for all physician services,
                    including consultations, beginning in January 1992. In implementing
                    the physician fee schedule, CMS provided new, nationally uniform
                    interpretations of consultation codes.

                    Pursuant to 42 CFR § 411.351 and section 15506 of the Medicare
                    Carriers Manual (the Manual), Medicare allows reimbursement for

 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT    2
I N T R O D        U C T            I O N


                    consultations if the following conditions are satisfied (not applicable to
                    confirmatory consultations):
                    o 	 The referring physician requests the consultant’s opinion or
                           advice regarding evaluation and/or management of a specific
                           medical problem.
                    o 	 The written or verbal request and need for the consultation are
                           documented in the patient’s medical record.
                    o 	 After the consultation is provided, the consultant prepares a
                           written report of his or her findings, which is provided to the
                           referring physician.

                    In a September 2001 update of the Manual, CMS clarified that
                    physician assistants, nurse practitioners, and certified nurse-midwives
                    can request and perform consultations if the services are within their
                    scope of practice, as defined by State law.

                    In addition to these requirements, section 1833(e) of the Act states that
                    Medicare will not pay for services, including consultations, unless
                    documentation or other information is furnished to support the claim.
                    Federal regulations at 42 CFR § 424.5(a)(6) require physicians to
                    furnish sufficient documentation (upon request) to Medicare to
                    determine whether payment is due and, if so, the amount to be paid.

                    In 2001, Medicare allowed approximately $3.3 billion for consultations
                    out of a total of $23 billion for evaluation and management services.2
                    By 2004, that figure had grown to $4.1 billion. In 2001, approximately
                    45 percent of the allowed claims were for office or other outpatient
                    consultations, and 44 percent were for initial inpatient consultations.
                    The remaining 11 percent were primarily for follow-up inpatient
                    consultations, with a small number of second opinions.


                    METHODOLOGY
                    Overview
                    Certified professional coders reviewed the medical records and
                    supporting documentation for a sample of 400 services billed as
                    consultations and performed in 2001.



                    2 Medicare normally pays 80 percent of allowed charges, and the beneficiary or his or her
                      supplemental insurance pays the remaining 20 percent as coinsurance.



 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                        3
I N T R O D        U C T            I O N


                    Sample Selection
                    We defined our population as all services allowed with a consultation
                    code (CPT codes 99241 through 99275) appearing in Medicare’s
                    National Claims History with service dates in 2001. From this
                    population, we selected a simple random sample of 400 services to be
                    reviewed for documentation and billing accuracy. Because we selected
                    our sample in March 2002, and Medicare may reimburse claims up to
                    12 months after the date of service, our population actually contained
                    only 16,470,281 services—about two-thirds of the total 25,557,836
                    consultations allowed with service dates falling in 2001.

                    After completing the medical review, we compared our population with
                    the set of consultations that were provided in 2001, but did not appear
                    in the National Claims History at the time we selected our sample (and
                    hence were not part of our population). As a result of this comparison,
                    we found that CPT code 99255—Initial inpatient consultation, level
                    five—was underrepresented in our population. We discussed this issue
                    with CMS, but were not able to determine why this code differed from
                    the others. Because nearly all level five codes were upcoded (see
                    Findings), this inconsistency most likely caused us to underestimate the
                    dollars allowed by Medicare for miscoded consultations.
                    Sources of Medical Records
                    For each service, we identified the patient, the consultant who
                    submitted the claim, the referring physician listed on the claim (if
                    any), and the provider of any concurrent Part A services. We
                    identified the consultant and referring physicians from the unique
                    physician identification number matches. If the claims did not
                    include the unique physician identification numbers, we contacted the
                    appropriate Medicare carrier to identify the provider. From each
                    physician and hospital, we requested photocopies of the portion of
                    each patient’s medical record pertaining to the sampled consultation.

                    Pursuant to Medicare coverage guidelines, documentation for a
                    consultation should contain at least three parts: (1) a request for the
                    consultation from the referring physician, (2) the need for the
                    consultation, and (3) a copy of the written opinion sent by the consultant
                    to the referring physician.3 For office or other outpatient consultations,
                    the same documentation should be in the medical records for both the

                    3 Centers for Medicare & Medicaid Services, Medicare Part B Physician’s & Other
                      Non-Physician Practitioner Manual—Medical Care Section, p. 11.



 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT              4
I N T R O D        U C T            I O N


                    referring physician and the consultant. For initial inpatient and
                    follow-up inpatient consultations, documentation of the request, the
                    patient history and physical examination, and the written consultation
                    should be contained in the same hospital medical record. For
                    confirmatory consultations completed in an office setting, the consultant
                    is the only source of the record. For confirmatory consultations
                    completed in an inpatient setting, documentation of the patient history
                    and physical examination and the consultant’s written report should be
                    included in the hospital medical record. Regardless of the setting,
                    consultants usually keep a copy of the written opinion in their office
                    records.
                    Collecting Medical Records
                    We mailed an initial written request to all consultants, referring
                    physicians, and hospitals appearing in our sample. A number of these
                    initial mailings were returned by the post office as undeliverable. We
                    conducted Internet searches using various search engines for alternate
                    addresses for these individuals and facilities. We continued mailing
                    requests to all alternate addresses until we found a valid address or
                    exhausted all possibilities. We sent up to two follow-up requests to each
                    physician or hospital that did not respond. If a hospital did not respond
                    to our second follow-up request, we called the facility to request the
                    records.

                    Even after repeated attempts, we could not contact any of the sources
                    associated with three consultations in our sample. We removed these
                    services from all subsequent data analyses. Of the 397 consultations for
                    which we were able to contact at least 1 of the sources, we did not
                    receive any records for 2, and counted these as undocumented. Hence,
                    we received a response from at least 1 source of records for 395 of the
                    400 services in our sample, for an overall response rate of 99 percent.
                    In some cases, we did not receive records from all the sources for a
                    consultation. In these cases, the coders still could complete their record
                    review because most of the information from the various sources is
                    redundant.
                    Record Review
                    We contracted with certified professional coders who have extensive
                    experience reviewing Medicare claims to review the medical records.

                    Relying on the coders’ expertise, we developed a review instrument
                    using Medicare and CPT guidelines for evaluation and management
                    services. The coders used this standardized instrument to perform the

 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   5
I N T R O D        U C T            I O N


                    reviews. The coders reviewed each record and determined if the service
                    performed was coded correctly (meaning it met Medicare’s definition of
                    a consultation and was billed as the type and level of consultation) and
                    was documented adequately. After completing the instruments, the
                    coders forwarded them for review to our primary contractor, who then
                    returned the instruments to us.
                    Cost Projections
                    To calculate the allowed amounts cited in the findings, we first
                    calculated the ratio of the total overpayments for a given category of
                    error (e.g., upcoded consultations) to the total amount allowed for all
                    consultations in our sample. We then applied this ratio to the total
                    amount allowed for consultations in 2001—$3,290,931,599—to
                    determine the amount allowed in 2001 for each category of improper
                    payment. We used a similar method to estimate the total amount
                    allowed in 2001 for undocumented services. Appendix B shows the
                    point estimates and confidence intervals for these ratios, as well as for
                    other percentages cited in the report. Appendix C gives projections of
                    improperly allowed dollars based strictly on projections to our service
                    universe.

                    Because we only reviewed consultation services provided in 2001, our
                    sample results cannot be extrapolated to other periods. Accordingly, we
                    make no inferences to consultation error rates in subsequent years. As
                    noted previously, Medicare reimbursement for consultations increased
                    from $3.3 billion in 2001 to $4.1 billion in 2004. To our knowledge, CMS
                    has made no national policy changes that would affect the incidence of
                    consultation payment errors since 2001, suggesting that at least some of
                    the payment vulnerabilities that we identified still exist.
                    CERT and This Inspection
                    In 2003 and 2004, CMS reported payment error rates for consultations
                    as part of its Comprehensive Error Rate Testing (CERT) program.
                    While its findings were quite similar to the findings in this report,
                    which are based on 2001 data, the Office of Inspector General (OIG) and
                    CMS reviews should not be directly compared because their goals and
                    methodologies are different. The goal of CERT is to measure the
                    performance of CMS’s contractors by calculating a paid claims error
                    rate. Our objective, on the other hand, was to determine specifically if
                    consultations billed to Medicare were coded correctly and documented
                    adequately. Hence, CERT reports on nearly every type of service
                    Medicare allows, but does not offer the same depth of information


 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   6
I N T R O D        U C T            I O N


                    specific to consultations that our narrowly focused inspection provides.
                    This inspection was not designed to reproduce or to review the CERT
                    findings.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-09-02-00030    C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   7
     Δ       F I N D I N G

 Medicare allowed approximately $1.1 billion more                   Medicare allowed approximately
than it should have for services that were billed as                26 million services that were billed
                                                                    with a consultation code in 2001.
                                      consultations
                                                                    According to our medical review,
                                 approximately 75 percent of these services did not comply with
                                 Medicare regulations for reimbursement as a consultation, were billed
                                 with an incorrect consultation code, or were documented inadequately.
                                 Table 1 shows the types of services improperly paid as consultations,
                                 the representation of each type in our sample, and projections to the
                                 universe of all services allowed with consultation codes in 2001.4



                       Table 1: Seventy-Five Percent of Services Billed as Consultations
                       Were Improperly Paid
                                                                                    Sample                                      Projected
                       Type of Improper Payment                                                Allowed              Services             Allowed Amount
                                                                          Services
                                                                                               Amount            (Proportion)                  (Millions)
                       Not a Consultation                                          74        $2,860.85                       0.19                          $191
                       Incorrect Consultation Code                                187         $9,186.39                      0.47                          $613
                           Incorrect Type                                               7       $339.64                       0.02                          $23
                           Incorrect Level                                        180          $8,846.75                      0.45                         $591
                             - Upcoded                                            161          $9,625.61                      0.41                         $643
                             - Downcoded                                           19          ($778.86)                      0.05                         ($52)
                       Undocumented                                                37        $3,894.36                       0.09                          $260
                           Nonresponse                                                  2        $97.06                           *                            *
                           Unsubstantiated                                         35          $3,797.30                      0.09                         $254
                       Total Improperly Paid                                      298        $15,941.60                       0.75                        $1,064

                     Source: Office of Inspector General, Analysis of Record Review Results, 2004. Projected allowed amounts for the
                     different types do not equal total due to rounding. The * indicates that the n for that cell is too small to reliably project.



                                 Not a consultation. Approximately 19 percent of services allowed as
                                 consultations did not meet the definition of a consultation contained in
                                 42 CFR § 411.351. Had providers billed these services correctly,
                                 Medicare and its beneficiaries would have saved approximately
                                 $191 million in 2001. Most of these services were actually lower-paying
                                 regular office or inpatient visits. Other examples of errors included
                                 billing a psychiatric diagnostic interview and a discharge management
                                 service as initial inpatient consultations. Nurses (who are not eligible


                                 4 See the Methodology section for a discussion of our sampling frame as it relates to the
                                   universe of services allowed as consultations in 2001.



         OEI-09-02-00030         C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                                                 8
F   I N D I N G


                              to bill Medicare for consultations) furnished an additional two services
                              in our sample.
                              Incorrect consultation code: Incorrect type. Two percent of the services that
                              were coded as consultations met the regulatory definition of a
                              consultation, but were billed as the wrong type of consultation. Most of
                              these were billed as a type of consultation reimbursed at a higher rate
                              than the one actually performed. Two consultants, however, billed for
                              follow-up inpatient consultations instead of the appropriate, higher-
                              paying initial inpatient consultation codes. Net overpayments for
                              consultations billed as the wrong type totaled $23 million.
                              Incorrect consultation code: Incorrect level. Nearly 45 percent of the
                              services that were billed as consultations in 2001 were not coded at
                              the proper level. More specifically, 41 percent of all services billed as
                              consultations were upcoded (billed at a higher level than the service
                              actually performed), and 5 percent were downcoded (billed at a lower
                              level). Overall, Medicare and its beneficiaries paid $643 million too
                              much for upcoded consultations but paid $52 million too little for
                              downcoded consultations, yielding a net overpayment of $591 million.
                              Table 2 shows the distribution of downcoded and upcoded services. 5

      Table 2: Distribution of Levels Downcoded and Upcoded
                                                                                                                      Projected
                                                                      Percentage of
                                             Number of                                                           Under- or Over-
                                                                       Downcoded/             Mean Under- or
      Type of Error                          Services in                                                                Allowed
                                                                          Upcoded              Over-Payment
                                                Sample                                                                  Amount
                                                                           Services
                                                                                                                      (Millions)
      Downcoded                                                 19                        -          ($40.99)             ($52.1)
         - By 1 Level                                           18                     95%            ($37.36)            ($45.0)
         - By 2 Levels                                           1                      5%           ($106.81)                  *
      Upcoded                                                 161                         -           $59.79                $643
         - By 1 Level                                           92                     57%             $39.27               $241
         - By 2 Levels                                          53                     33%             $77.95               $276
         - By 3 Levels                                          16                     10%            $117.62               $126
      Total Billed at
                                                              180                         -           $49.15           $591 (net)
      Incorrect Level
     Source: Office of Inspector General, Analysis of Record Review Results, 2004.
     The * indicates that the n for that cell is too small to reliably project.




                              5 Data are reported in the aggregate for all consultation types. Differences in upcoding
                                among the types of consultation exist, but were not statistically significant.



    OEI-09-02-00030           C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                             9
F 	I N D I N G 



                   Physicians billed approximately 2 million services at the highest level
                   of the correct type of consultation, but coded just 5 percent of these
                   correctly. For example: a level five office or other outpatient
                   consultation requires a comprehensive history and evaluation and a
                   high complexity of medical decisionmaking. Nine physicians billed
                   this code instead of the level three office or other outpatient
                   consultation that was supported by the medical record, which showed
                   that the physician took only a detailed history and evaluation and
                   exhibited only a low complexity of medical decisionmaking. Office or
                   other outpatient, initial inpatient, and confirmatory consultations
                   billed at level five were upcoded by 1.9 levels on average, for a mean
                   overpayment of $93.61 per service.
                   Undocumented. Reviewers found that 9 percent of consultations were
                   not documented in any of the patient’s medical records, including those
                   we received from the consultant, the referring physician, and/or the
                   inpatient facility where the patient was staying at the time of the
                   service. Based on this finding, we estimate that Medicare may have
                   allowed approximately $260 million in 2001 for undocumented services
                   billed as consultations. Besides services that were completely
                   undocumented, medical records for an additional 4 percent were
                   insufficient to determine the correct code to describe the service.
                   Approximately 94 percent of services billed as follow-up inpatient
                   consultations were coded incorrectly
                   Excluding undocumented and inadequately documented services,
                   approximately 94 percent of services that were billed as follow-up
                   inpatient consultations should have been billed as another service. In
                   our sample, we found that:

                   o 	 79 percent of these services were actually inpatient visits for daily
                       care, not consultations;

                   o 	 6 percent were actually initial inpatient or outpatient consultations;
                       and

                   o 	 9 percent were upcoded.

                   As indicated by the Physician Fee Schedule, Medicare reimbursed
                   follow-up inpatient consultations at a lower rate than other types of
                   consultations or regular inpatient visits in 2001. Therefore, it is
                   likely that most of these errors were unintentional.




 OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT    10
E X E C U T I V E                       S U          M M A R Y
Δ    R E C O M M E N D A T I O N                                                  





                   Our review showed that services billed to Medicare as consultations
                   often were not actually consultations, were coded as the incorrect type
                   or level of consultations, or were not substantiated by documentation.
                   Although CMS clarified the difference between office visits and
                   consultations in October 2003, it did not address the distinctions among
                   the types and levels of consultations.
                   Therefore, we recommend that, through its Medicare carriers, CMS educate
                   physicians and other health care practitioners about the criteria and proper
                   billing for all types and levels of consultations with emphasis on the highest
                   billing levels and follow-up inpatient consultations.

                   In addition, we have forwarded information on the miscoded and
                   undocumented services identified in our sample to CMS for appropriate
                   action.


                   AGENCY COMMENTS
                   In its comments to our draft report, CMS noted that the CPT codes for
                   follow-up inpatient consultations and confirmatory consultations were
                   deleted effective January 1, 2006. CMS has revised its policy manuals
                   to reflect these changes. The agency agreed with our recommendation
                   to educate providers about consultations and plans to publish on its
                   Web site a Special Edition article highlighting these changes and
                   providing new coding instructions for consultation services. The
                   complete text of CMS’s comments is included starting on page 17.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We are pleased that CMS has agreed to implement our recommendation
                   and look forward to seeing the Special Edition article when it is
                   published. Also, the elimination of the codes for follow-up inpatient
                   consultations and confirmatory consultations should improve providers’
                   understanding of the proper billing for consultations and reduce the
                   error rate associated with these services.




 OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   11
Δ     A P P E N D I X                               ~      A

    Coding Levels for Consultations

                    As defined by CPT, evaluation and management codes include seven
                    basic elements—patient history, physical examination, medical
                    decisionmaking, counseling, coordination of care, the nature of the
                    patient’s presenting problem (or the reason for the visit with the
                    physician), and time. 6 The first three components are key to selecting
                    the correct level for a consultation. To properly code the consultation,
                    the provider must determine, based on these key components, which
                    level of consultation is appropriate. The three key components are:
                    o 	 The extent of the patient history—consultants use their clinical
                           judgment and the nature of the patient’s presenting problems to
                           determine the depth of the history needed to complete the
                           consultation and provide an opinion to the referring physician. A
                           patient history can be classified into one of four categories:
                               •	      Problem focused (brief history of present illness or problem),

                               •	      Expanded problem focused (brief history of present illness
                                       with problem-pertinent system review),
                               •	      Detailed (extended history of present illness with pertinent
                                       past, family, and social history directly related to the
                                       presenting problem; includes review of a limited number of
                                       additional systems), and
                               •	      Comprehensive (extended history of present illness with
                                       review of body systems directly related to the patient’s
                                       problems; complete past, family, and social history).
                    o 	 The extent of physical examination—based on clinical judgment
                           and the presenting medical problems, the consultant can perform
                           four types of examination:
                               •	      Problem focused (limited examination of the affected body
                                       area or organ system),
                               •	      Expanded problem focused (limited examination of affected
                                       area or systems with other symptomatic or related organ
                                       systems),


                    6 American Medical Association, Current Procedural Terminology—CPT 2000, 2002, and
                      2003 versions.




OEI-09-02-00030     C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                 12
A   P   P E N D       I X ~           A


                                 •	       Detailed (extended examination of affected body areas and
                                          other related systems), and
                                 •	       Comprehensive (a general multisystem examination or a
                                          complete examination of a single organ system).
                      o 	 The complexity of the consultant’s medical decisionmaking,
                             referring to the factors needed to establish a diagnosis and/or
                             select a management option:

                                 • 	 Selecting the correct level of decisionmaking is based on the
                                     number of possible diagnoses or the number of options that
                                     must be considered; the amount and/or complexity of
                                     medical records, diagnostic tests, and other information that
                                     physicians must obtain, review, and analyze; and the risk of
                                     significant complications, morbidity, and/or mortality.

                                 • 	 Four levels of medical decisionmaking are recognized:
                                     straightforward, low complexity, moderate complexity, and
                                     high complexity.




    OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT            13
Δ      A P P E N D I X                                ~         B


Confidence Intervals for Ratios and Percentages

Statistic                                                                      N            Point Estimate   95% Confidence Interval

Ratio of excess allowed amount for services that were
                                                                              397                   0.33           0.29 to 0.36
miscoded or undocumented to all allowances

Percentage of services that were miscoded or
                                                                              397                   0.75           0.71 to 0.79
undocumented

Percentage of services that were not consultations                            397                   0.19           0.15 to 0.23

Ratio of excess amount allowed for services that were not
                                                                              397                   0.06           0.04 to 0.08
consultations to all allowances

Percentage of services billed as consultations that were
                                                                              397                   0.47           0.42 to 0.52
coded as the incorrect type or level

Ratio of excess amount allowed for services coded as the
                                                                              397                   0.19           0.16 to 0.22
incorrect type or level to all allowances

Percentage of services billed as the incorrect type
                                                                              397                   0.02           0.00 to 0.03
of consultation

Ratio of excess amount allowed for services billed as the
                                                                              397                   0.01              ≤ 0.01
incorrect type of consultation to all allowances

Percentage of services billed at the incorrect level                          397                   0.45           0.40 to 0.50

Ratio of excess amount allowed for services billed at the
                                                                              397                   0.18           0.16 to 0.21
wrong level to all allowances

Percentage of services that were upcoded                                      397                   0.41           0.36 to 0.45

Ratio of excess amount allowed for upcoded services to all
                                                                              397                   0.20           0.18 to 0.23
allowances

Percentage of services that were downcoded                                    397                   0.05           0.03 to 0.07

Ratio of underpayments for downcoded services to all
                                                                              397                   (0.02)       (≤ 0.02) to (0.01)
allowances

Percentage of services that were undocumented                                 397                   0.09           0.06 to 0.12

Ratio of the amount allowed for undocumented services
                                                                              397                   0.08           0.05 to 0.11
to all allowances

Percentage of services that were documented
                                                                              397                   0.04           0.02 to 0.06
inadequately




       OEI-09-02-00030       C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                          14
    A   P    P E N D         I X ~             B



Confidence Intervals for Statistics (continued)

Statistic                                                                       N             Point Estimate   95% Confidence Interval

Percentage of services billed at level five of the
                                                                                22                    0.95              > 0.87
correct type that were billed incorrectly

Mean degree of upcoding where the consultation was
                                                                                22              1.91 levels       1.58 to 2.24 levels
billed at level five of the correct type

Mean overpayment due to upcoding where the
                                                                                22                $92.52          $77.98 to $107.06
consultation was billed at level five of the correct type

Ratio of dollars improperly allowed at level five to all
                                                                                397                   0.07           0.04 to 0.09
allowances

Percentage of documented services billed as follow-up
                                                                                34                    0.94              > 0.86
consultations that were miscoded




        OEI-09-02-00030        C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                          15
  Δ           A P P E N D I X                                ~      C


Inappropriately Allowed Amounts Based Strictly on Our Service Universe

Statistic                                                                      N            Point Estimate    95% Confidence Interval

Excess amount allowed for services that were miscoded
                                                                              397            $656 million    $578 million to $734 million
or undocumented

Excess amount allowed for services that were not actually
                                                                              397            $118 million    $77 million to $159 million
consultations

Excess amount allowed for consultations billed as the
                                                                              397            $378 million    $317 million to $439 million
incorrect type or level

Excess amount allowed for consultations billed as the
                                                                              397             $14 million            < $29 million
incorrect type of consultation

Excess amount allowed for consultations billed at the
                                                                              397            $364 million    $304 million to $424 million
wrong level

Excess amount allowed for upcoded services                                    397            $396 million    $340 million to $452 million

Underpayments for downcoded services                                          397            ($32 million)   ($47 million) to ($17 million)

Amount allowed for undocumented services                                      397            $160 million    $105 million to $216 million




       OEI-09-02-00030       C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT                            16
Δ   A P P E N D I X                               ~      D         





OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   17
A   P   P E N D       I X ~           D             





    OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   18
A   P   P E N D       I X ~           D             





    OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   19
A   P   P E N D       I X ~           D             





    OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT   20
Δ   A P
      C P
        K EN NO DW I L X E D~ G AM E N T S                                               


                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Deborah Harvey, Project Leader
                  Scott Hutchison, Project Leader

                  Silvia Chin, Program Analyst

                  Cheryl Dotts, Program Assistant

                  Robert Gibbons, Program Analyst

                  Michael Henry, Program Analyst

                  Thomas Purvis, Program Analyst

                  Stephanie London, Program Specialist

                  Linda Moscoe, Program Analyst

                  Bambi Straw, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch

                  Barbara Tedesco, Mathematical Statistician




OEI-09-02-00030   C O N S U LTAT I O N S   IN   MEDICARE: CODING   AND   REIMBURSEMENT       21
